BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Amicus Curiae Brief of National Association
of Home Builders of the United States and California
Building Industry Association in Support of Petitioner
in 20-54, Bridge Aina Le'a, LLC v. Hawaii Land Use
Commission, were sent via Next Day Service to the
U.S. Supreme Court, and 3 copies were sent via Next
Day Service and e-mail to the following parties listed
below, this 21st day of August, 2020:
Michael M. Berger
Manatt, Phelps & Phillips, LLP
2049 Century Park East
Suite 1700
Los Angeles, CA 90067
(310) 312-4185
mmberger@manatt.com
Bruce D. Voss
Bays Lung Rose & Holma
Topa Financial Ctr
700 Bishop St
Suite 900
Honolulu, HI 96813
(808) 523-9000
bvoss@legalhawaii.com

Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Kimberly Tsumoto Guidry
Ewan C. Rayner, Deputy Solicitor General
Department of the Attorney General, State of HI
425 Queen St.
Honolulu, HI 96813
(808) 586-1360
kimberly.t.guidry@hawaii.gov
ewan.rayner@hawaii.gov
Counsel for Respondent

Dev ala A. J anardan
Counsel of Record
Thomas J. Ward
National Association of Home Builders of
the United States
120115th Street, N.W.
Washington, D.C. 20005
(202) 266-8200
djanardan@nahb.org
Nick Cammarota
California Building Industry Ass'n
1215 K Street
Suite 1200
Sacramento, CA 95814
(916) 443-7933
ncammarota@cbia.org
Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 21, 2020.

{[)
DonnaJ. W~
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

'7!c bu6--

Notary
[seal]

CL~ al, Jod()
CJ

/j ,

